App. 1
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

LEO LECH; ALFONSIA LECH;
JOHN LECH,
Plaintiffs-Appellants,
v.
CHIEF JOHN A. JACKSON;
COMMANDER DUSTIN
VARNEY; OFFICER MIC
SMITH; OFFICER JEFF
MULQUEEN; OFFICER
AUSTIN SPEER; OFFICER
JARED ARTHUR; OFFICER
BRYAN STUEBINGER;
OFFICER JUAN VILLALVA;
OFFICER ANDY WYNDER;
OFFICER ANTHONY
COSTARELLA; OFFICER
ROB HASCHE, of the Greenwood
Village Police Department,
individually and in their official
capacities; THE CITY OF
GREENWOOD VILLAGE,
Defendants-Appellees.
-------------------------------COLORADO MUNICIPAL
LEAGUE; INTERNATIONAL
MUNICIPAL LAWYERS
ASSOCIATION,
Amici Curiae.

No. 18-1051
(D.C. No. 1:16-CV01956-PAB-MJW)
(D. Colo.)

App. 2
-----------------------------------------------------------------------

ORDER AND JUDGMENT*
(Filed Oct. 29, 2019)
-----------------------------------------------------------------------

Before HOLMES, McKAY, and MORITZ, Circuit Judges.
-----------------------------------------------------------------------

Leo, Alfonsia, and John Lech (the Lechs) sued the
City of Greenwood Village (the City) and several of its
police officers (the officers),1 alleging violations of the
Takings Clause of the Fifth Amendment of the United
States Constitution and Article II, Section 15 of the
Colorado Constitution. In support of their Takings
Clause claims, the Lechs alleged the defendants violated their constitutional rights—first by damaging
the Lechs’ Colorado home during an attempt to apprehend a criminal suspect and later by refusing to compensate the Lechs for this alleged taking. The district
court granted the defendants’ motion for summary
judgment, concluding in relevant part that (1) when a
state acts pursuant to its police power, rather than the
power of eminent domain, its actions do not constitute
a taking; (2) because the officers destroyed the Lechs’
home while attempting to enforce the state’s criminal
laws, they acted pursuant to the state’s police power;
* This order and judgment is not binding precedent, except
under the doctrines of law of the case, res judicata, and collateral
estoppel. But it may be cited for its persuasive value. See Fed. R.
App. P. 32.1; 10th Cir. R. 32.1.
1
Where appropriate, we refer to the City and the officers
collectively as the defendants.

App. 3
and (3) any damage to the Lechs’ home therefore fell
outside the ambit of the Takings Clause.
The Lechs appeal, arguing the district court erred
in granting the defendants’ motion for summary judgment. In support, they first assert the district court
erred in “draw[ing] a hard line between” the power of
eminent domain and the state’s police power. Aplt. Br.
16. Alternatively, they argue that even if such a “line”
exists, the district court erred in ruling that the defendants acted pursuant to the state’s police power
here. Id. For the reasons discussed below, we reject
these arguments and affirm the district court’s order.2
Background
We take the bulk of the following facts from the
district court’s order granting summary judgment to
the defendants. In doing so, we view the evidence in
the light most favorable to, and draw all reasonable
inferences in favor of, the Lechs.3 See Fassbender v.
2

Because we may affirm the district court’s order based
solely on its conclusion that the defendants’ law-enforcement efforts fell within the scope of the police power (and therefore fell
outside the scope of the Takings Clause), we need not and do not
address whether the Lechs’ Takings Clause claims also fail under
what the district court referred to as the “emergency exception”
to the Takings Clause. App. vol. 2, 398.
3
The defendants filed a supplemental appendix that contains, among other things, documents from the fleeing suspect’s
related criminal proceedings. Because we see no indication that
the defendants submitted these documents to the district court,
we decline to consider them. See John Hancock Mut. Life Ins. Co.
v. Weisman, 27 F.3d 500, 506 (10th Cir. 1994) (“This court has

App. 4
Correct Care Sols., LLC, 890 F.3d 875, 882 (10th Cir.
2018).
Leo and Alfonsia Lech purchased the home at
4219 South Alton Street in Greenwood Village, Colorado, for their son, John Lech. At the time of the relevant events, John Lech lived at the home with his
girlfriend and her nine-year-old son. On June 3, 2015,
officers from the City’s police department responded to
a burglar alarm at the Lechs’ home and learned that
Robert Seacat, an armed criminal suspect who was
attempting to evade capture by the Aurora Police Department, was inside. Although the nine-year-old son
of John Lech’s girlfriend was present at the time of the
break-in, he was able to exit the home safely.
To prevent Seacat from escaping, the officers positioned their vehicles in the driveway of the Lechs’
home. Seacat then fired a bullet from inside the garage
and struck an officer’s car. At that point, the officers
deemed the incident a high-risk, barricade situation.4
For approximately five hours, negotiators attempted
to convince Seacat to surrender. After these efforts
to negotiate proved unsuccessful, officers employed
held that it cannot, in reviewing a ruling on summary judgment,
consider evidence not before the district court.”).
4
According to the police department’s manual, a high-risk
situation is one that involves “[t]he arrest or apprehension of an
armed or potentially armed subject where the likelihood of armed
resistance is high.” Supp. App. vol. 1, 27. A barricade situation
involves a “standoff created by an armed or potentially armed suspect . . . who is refusing to comply with police demands for surrender.” Id.

App. 5
increasingly aggressive tactics: they fired several
rounds of gas munition into the home, breached the
home’s doors with a BearCat armored vehicle so they
could send in a robot to deliver a “throw phone” to
Seacat, and used explosives to create sight lines and
points of entry to the home. App. vol. 2, 380. The officers
also sent in a tactical team to apprehend Seacat. But
Seacat fired at the officers while they were inside, requiring them to leave. When even these more aggressive tactics failed to draw Seacat out, officers used the
BearCat to open multiple holes in the home and again
deployed a tactical team to apprehend Seacat.
This time, the tactical team was successful: it
managed to disarm Seacat and take him into custody.
But as a result of this 19-hour standoff, the Lechs’
home was rendered uninhabitable. And although the
City offered to help with temporary living expenses
when the Lechs demolished and rebuilt their home, it
otherwise denied liability for the incident and declined
to provide any further compensation.
The Lechs then sued the defendants, alleging, in
relevant part, that the defendants violated the Takings
Clause of both the United States and Colorado Constitutions by damaging the Lechs’ home without providing just compensation. The district court rejected this
argument. In doing so, it first distinguished between
the state’s “eminent[-]domain authority, which permits
the taking of private property for public use,” and the
state’s “police power, which allows [it] to regulate private property for the protection of public health, safety,
and welfare.” Id. at 390. The district court then ruled

App. 6
that although a state may “trigger[ ] the requirement
of just compensation” by exercising the former, a state’s
exercise of the latter does not constitute a taking and
is therefore “noncompensable.” Id. at 390–91.
Next, the district court determined that the state’s
police power encompasses “the enforcement of ” a
state’s “criminal laws.” Id. at 397. And because the officers damaged the Lechs’ home while attempting to
apprehend a criminal suspect, the district court reasoned, their actions fell within the scope of “the state’s
police powers and not the power of eminent domain.”
Id. at 399. Thus, the district court concluded, any damage the officers caused to the Lechs’ home did not constitute a taking for purposes of the Takings Clause.
Accordingly, it granted the defendants’ motion for summary judgment on the Lechs’ Takings Clause claims.5
The Lechs now appeal the district court’s order.
Analysis
The parties agree that the Takings Clause of the
Fifth Amendment “requires compensation when a
taking occurs.” Alto Eldorado P’ship v. Cty. of Santa Fe,
634 F.3d 1170, 1174 (10th Cir. 2011); see also U.S.
Const. amend. V (providing that private property
shall not “be taken for public use, without just

5

The Lechs also alleged various other claims. But they do
not challenge the district court’s resolution of those claims on appeal. Accordingly, we discuss the Lechs’ remaining claims only to
the extent they are relevant to our Takings Clause analysis.

App. 7
compensation”).6 But they disagree about whether a
taking occurred here. According to the Lechs, the defendants’ conduct amounts to a taking because (1) the
officers physically intruded upon and ultimately destroyed their home and (2) such a “physical appropriation of property gives rise to a per se taking.” Aplt. Br.
9. The defendants, on the other hand, argue that no
taking occurred because the officers damaged the
Lechs’ home pursuant to the police power, not the
power of eminent domain. The district court agreed
with the defendants: it concluded that “the tactical decisions that ultimately destroyed [the Lechs’] home
were made pursuant to the state’s police powers and
not the power of eminent domain.” App. vol. 2, 399.
Thus, the district court ruled, the defendants’ conduct
did not constitute a taking for purposes of the Taking
Clause.
In challenging the district court’s ruling on appeal,
the Lechs advance two general arguments. First, they
6

The Colorado Constitution contains similar, albeit not identical, language. See Colo. Const. art. II, § 15 (“Private property
shall not be taken or damaged, for public or private use, without
just compensation.” (emphasis added)). Notably, the Lechs
acknowledged in district court that their rights under the state
and federal Takings Clauses are “essentially the same.” App. vol.
2, 307. The district court agreed, ruling that because the Colorado
Supreme Court has interpreted the state Takings Clause consistently with the federal Takings Clause, the Lechs’ Takings Clause
claims could “be considered together.” Id. at 389 n.9; cf. Animas
Valley Sand & Gravel, Inc. v. Bd. of Cty. Comm’rs, 38 P.3d 59, 63–
64 (Colo. 2001). Because the Lechs do not challenge this aspect of
the district court’s ruling on appeal, we likewise analyze their
state and federal Takings Clause claims collectively.

App. 8
assert the district court erred in ruling that when the
government acts pursuant to its police power, its actions cannot constitute a taking for purposes of the
Takings Clause. Second, they argue that even assuming the distinction between the state’s police power
and its power of eminent domain is dispositive of the
taking question, the district court erred in concluding
that the officers’ conduct here fell within the scope of
the state’s police power merely because the officers
damaged the Lechs’ home while “enforcing the law.”
Aplt. Br. 23. In evaluating these arguments, we review
de novo the district court’s decision to grant summary
judgment to the defendants, applying the same standard as the district court. Morden v. XL Specialty Ins.,
903 F.3d 1145, 1151 (10th Cir. 2018). “Summary judgment is appropriate if ‘there is no genuine dispute as
to any material fact and the movant is entitled to judgment as a matter of law.’ ” Llewellyn v. Allstate Home
Loans, Inc., 711 F.3d 1173, 1178 (10th Cir. 2013) (quoting Fed. R. Civ. P. 56(a)).
I.

Takings, the Police Power, and the Power of
Eminent Domain

On appeal, the Lechs first argue the district court
erred in drawing a “hard line” between those actions
the government performs pursuant to its power of eminent domain and those it performs pursuant to its police power. Aplt. Br. 16. The Lechs do not dispute that
the Supreme Court has recognized such a distinction
in the context of regulatory takings. See, e.g., Mugler
v. Kansas, 123 U.S. 623, 668–69 (1887) (distinguishing

App. 9
between “the state’s power of eminent domain”—under
which “property may not be taken for public use without compensation”—and state’s “police powers”—
which are not “burdened with the condition that the
state must compensate [affected] individual owners for
pecuniary losses they may sustain”). But the Lechs
suggest this distinction is not dispositive in the context
of physical takings. Compare Lingle v. Chevron U.S.A.
Inc., 544 U.S. 528, 537 (2005) (describing physical takings as “direct government appropriation or physical
invasion of private property”), with id. at 539 (describing regulatory takings as “regulatory actions that are
functionally equivalent” to physical takings). Specifically, the Lechs maintain that any “physical appropriation of [private] property” by the government—
whether committed pursuant to the power of eminent
domain or the police power—“gives rise to a per se
taking” and thus requires compensation under the
Takings Clause. Aplt. Br. 9.
But contrary to the Lechs’ position, at least three
of our sibling circuits and the Court of Federal Claims
have expressly relied upon the distinction between the
state’s police power and the power of eminent domain
in cases involving the government’s direct physical
interference with private property. For instance, in
AmeriSource Corp. v. United States, the Federal Circuit
held that no taking occurred where the government
physically seized (and ultimately “rendered worthless”) the plaintiff ’s pharmaceuticals “in connection
with [a criminal] investigation” because “the government seized the pharmaceuticals in order to enforce

App. 10
criminal laws”—an action the Federal Circuit said fell
well “within the bounds of the police power.” 525 F.3d
1149, 1150, 1153–54 (Fed. Cir. 2008) (citing Bennis v.
Michigan, 516 U.S. 442, 443–44, 452–53 (1996)); see
also, e.g., Zitter v. Petruccelli, 744 F. App’x 90, 93, 96 (3d
Cir. 2018) (unpublished) (relying on distinction between power of eminent domain and police power to
hold that no taking occurred where officials physically
seized plaintiff ’s oysters and oyster-farming equipment (citing Bennis, 516 U.S. at 452)); Johnson v. Manitowoc Cty., 635 F.3d 331, 333–34, 336 (7th Cir. 2011)
(relying on distinction between power of eminent domain and police power to hold that no taking occurred
where authorities physically damaged plaintiff ’s home
(citing Bennis, 516 U.S. at 452)); Bachmann v. United
States, 134 Fed. Cl. 694, 696 (Fed. Cl. 2017) (holding
that “[w]hen private property is damaged incident to
the exercise of the police power, such damage”—even
when physical in nature—“is not a taking for the
public use, because the property has not been altered
or turned over for public benefit” (citing Nat’l Bd. of
Young Men’s Christian Ass’ns v. United States, 395 U.S.
85, 92–93 (1969))).
Further, although the Supreme Court has never
expressly invoked this distinction in a case alleging a
physical taking, it has implicitly indicated the distinction applies in this context. See, e.g., Bennis, 516 U.S.
at 443–44, 453–54 (rejecting plaintiff ’s Takings Clause
claim where state court ordered vehicle “forfeited as a
public nuisance” without requiring state to compensate plaintiff, who shared ownership of vehicle with

App. 11
her husband; reasoning that when state acquires property “under the exercise of governmental authority
other than the power of eminent domain,” government
is not “required to compensate an owner for [that]
property” (emphasis added));7 Miller v. Schoene, 276
U.S. 272, 277, 279–80 (1928) (rejecting constitutional
challenge to statute that allowed state to condemn and
destroy “cedar trees infected by cedar rust,” even
though statute did not require state to compensate
owners for any trees it destroyed; characterizing statute as valid “exercise of the police power”).8
7

In Bennis, the Court did not expressly characterize the
forfeiture action as a use of the state’s police power. But the Court
has previously described forfeitures in this manner. See, e.g., Van
Oster v. Kansas, 272 U.S. 465, 467 (1926) (“[A] state in the exercise of its police [power] may forfeit property. . . .”). Further, in
Bennis, the Court noted that the state’s actions were motivated
by its desire to “deter illegal activity that contributes to neighborhood deterioration and unsafe streets.” 516 U.S. at 453. And these
are classic markers of the state’s police power. See Medtronic, Inc.
v. Lohr, 518 U.S. 470, 475 (1996) (“Throughout our history the
several [s]tates have exercised their police powers to protect the
health and safety of their citizens.”). Finally, other courts have
interpreted Bennis as a police-power case. See, e.g., Rhaburn v.
United States, 390 F. App’x 987, 988 (Fed. Cir. 2010) (unpublished) (“In Bennis . . . [t]he Court ruled that no taking had
occurred, relying on the nature of the government power exercised to take the property, i.e., the police power.”).
8
The nature of the plaintiffs’ constitutional claim in Miller
is not entirely clear from the Court’s language. But the Court has
repeatedly cited Miller as part of its Takings Clause jurisprudence. See, e.g., Keystone Bituminous Coal Ass’n v. DeBenedictis,
480 U.S. 470, 490 (1987) (characterizing Miller as “holding that
the Takings Clause did not require the State of Virginia to compensate the owners of cedar trees for the value of the trees that
the [s]tate had ordered destroyed”).

App. 12
And we have likewise implicitly treated the distinction between the police power and the power of
eminent domain as dispositive of the taking question,
even when the interference at issue is physical, rather
than regulatory, in nature. For instance, in Lawmaster
v. Ward, we held that the plaintiff failed to establish a
Takings Clause violation where federal agents physically damaged his property—by, for example, tearing
out door jambs and removing pieces of interior trim
from his home—while executing a search warrant. 125
F.3d 1341, 1344–46, 1351 (10th Cir. 1997). In doing so,
we reasoned that the plaintiff “fail[ed] to allege any
facts showing how his property was taken for public
use.” Id. at 1351. And although we did not expressly
note as much in Lawmaster, we have previously
equated the state’s power to “take[ ] property for public
use” with the state’s power of eminent domain, as opposed to its police power. Lamm v. Volpe, 449 F.2d 1202,
1203 (10th Cir. 1971) (“Police power should not be confused with eminent domain, in that the former controls
the use of property by the owner for the public good,
authorizing its regulation and destruction without
compensation, whereas the latter takes property for
public use and compensation is given for property
taken, damaged[,] or destroyed.”).9 Thus, by holding
that the plaintiff in Lawmaster could not show a Fifth
Amendment violation because he failed to show “how
his property was taken for public use,” we implicitly
held his Takings Clause claim failed because he could
9

Notably, although the defendants discuss Lamm in their
response brief, the Lechs do not address it in their reply brief.

App. 13
not show the government acted pursuant to its power
of eminent domain, rather than pursuant to its police
power. 125 F.3d at 1351; see also McKenna v. Portman,
538 F. App’x 221, 223–24 (3d Cir. 2013) (unpublished)
(relying in part on Lawmaster to hold that because defendants exercised state’s police power—rather than
power of eminent domain—when they seized plaintiffs’
property pursuant to search warrant and subsequently
damaged it, defendants “did not engage in a ‘taking’
under the Fifth Amendment”).
Nevertheless, despite these persuasive authorities, the Lechs urge us to disregard the distinction between the police power and the power of eminent
domain in resolving this appeal. In support, they point
out that “the Takings Clause ‘was designed to bar
[g]overnment from forcing some people alone to bear
public burdens which, in all fairness and justice,
should be borne by the public as a whole.’ ” Aplt. Br. 13
(quoting Armstrong v. United States, 364 U.S. 40, 49
(1960)). And they argue that upholding the district
court’s summary-judgment ruling would do just that:
it would force the Lechs to bear alone the cost of actions the defendants undertook in an effort to “apprehend[ ] a criminal suspect”—actions that were clearly
“for the benefit of the public” as a whole. Id. at 13, 33.
We do not disagree that the defendants’ actions
benefited the public. But as the Court explained in
Mugler, when the state acts to preserve the “safety of
the public,” the state “is not, and, consistent[ ] with the
existence and safety of organized society, cannot be,
burdened with the condition that the state must

App. 14
compensate [affected property owners] for pecuniary
losses they may sustain” in the process. 123 U.S. at 669.
Thus, “[a]s unfair as it may seem,” the Takings Clause
simply “does not entitle all aggrieved owners to recompense.” AmeriSource Corp., 525 F.3d at 1152, 1154.
Accordingly, we reject the Lechs’ first broad challenge to the district court’s ruling and hold that when
the state acts pursuant to its police power, rather than
the power of eminent domain, its actions do not constitute a taking for purposes of the Takings Clause. And
we further hold that this distinction remains dispositive in cases that, like this one, involve the direct physical appropriation or invasion of private property. But
that does not end the matter. We must next determine
whether, as the district court ruled, the defendants
acted pursuant to the state’s police power here.
II.

Law Enforcement and the Police Power

“[T]he police power encompasses ‘the authority
to provide for the public health, safety, and morals.’ ”
Dodger’s Bar & Grill, Inc. v. Johnson Cty. Bd. of Cty.
Comm’rs, 32 F.3d 1436, 1441 (10th Cir. 1994) (quoting
Barnes v. Glen Theatre, Inc., 501 U.S. 560, 569 (1991)).
The “contours of [the police power] are difficult to
discern.” AmeriSource Corp., 525 F.3d at 1153. But as
discussed above, we have described the police power in
contrast to the power of eminent domain: “the former
controls the use of property by the owner for the public
good,” while the latter “takes property for public use.”
Lamm, 449 F.2d 1203.

App. 15
The parties have not pointed us to any Tenth Circuit authority that affirmatively resolves whether the
defendants’ conduct here damaged the Lechs’ home for
the public good or for public use. But the Court of Federal Claims has applied this distinction to facts that
are nearly identical to those at issue here. See Bachmann, 134 Fed. Cl. 694. In Bachmann, the United
States Marshals Service “used gunfire, smoke bombs,
tear gas, a battering ram, and a robot to gain entry” to
the plaintiffs’ rental property, which—unbeknownst to
the plaintiffs—had become a hideout for a fleeing fugitive. Id. at 695. The plaintiffs then sued the Marshals
Service, alleging the damage to their property constituted a taking under the Fifth Amendment. Id. The
Marshals Service moved to dismiss, arguing that because it acted under the police power, any damage it
caused to the plaintiffs’ property in the process “could
not amount to a compensable Fifth Amendment taking.” Id.
Relying in large part on the Federal Circuit’s decision in AmeriSource, the Court of Federal Claims
agreed with the Marshals Service and granted the
motion to dismiss. Id. at 695–97 (citing AmeriSource,
525 F.3d at 1153–55). Critically, in doing so, it rejected
the plaintiffs’ argument that “when law enforcement
officials damage private property in the process of enforcing criminal law, they . . . take private property for
public use.” Id. at 695. Instead, the court reasoned, the
Marshals Service damaged plaintiffs’ property while
“us[ing] perhaps the most traditional function of the
police power: entering property to effectuate an arrest

App. 16
or a seizure.” Id. at 697. Thus, the court concluded, the
plaintiffs did not suffer “a taking of their property for
public use,” and their Fifth Amendment claim failed as
a result. Id. at 698.
Notably, in reaching this conclusion, the Court of
Federal Claims addressed the potential distinction between (1) cases in which “law enforcement officials
seize and retain [personal] property as the suspected
instrumentality or evidence of a crime” and (2) cases in
which government officials inflict damage to real property that is “incidental to the exercise of the police
power.” Id. at 696–98. And the Lechs attempt to invoke
the same distinction here: they argue that although
the police power encompasses the seizure of personal
property that is “caught up in criminal activity” or is
“evidence of a crime,” it does not encompass “the destruction of an entire home in furtherance of apprehending an uncooperative suspect.” Aplt. Br. 21–22.
But like the Court of Federal Claims, we see no “principled reason” to draw such a distinction. Bachmann,
134 Fed. Cl. at 698. Indeed, just like the house at issue
in Bachmann, the Lechs’ home “had become instrumental to criminal activity”—it was serving as a
hideout for a fugitive. Id. at 697. Thus, just as in
Bachmann, “the damage caused in the course of arresting a fugitive on plaintiffs’ property was not a taking
for public use, but rather it was an exercise of the police power.” Id.
The Lechs resist this approach, insisting that if we
define the police power broadly enough to encompass
conduct like the type at issue here and in Bachmann,

App. 17
it will amount to a “federally unprecedented expansion” of that power. Aplt. Br. 26. In support, the Lechs
first insist that the police power encompasses only the
state’s “power to establish laws”—as opposed to the
power to “enforce[ ]” those laws. Aplt. Br. 28. Yet the
Lechs expressly concede elsewhere in their brief that
the police power encompasses the power “to make
and enforce laws.” Aplt. Br. 30 (emphasis added). And
caselaw supports this concession. See, e.g., AmeriSource
Corp., 525 F.3d at 1153 (“The government’s seizure of
property to enforce criminal laws is a traditional exercise of the police power that does not constitute a ‘public use.’ ” (emphasis added) (citation omitted)). Thus,
we reject the Lechs’ effort to limit the police power to
actions that establish law, rather than merely enforce
it.
We likewise reject the Lechs’ assertion that the
police power does not encompass the state’s ability to
seize property from an innocent owner. This argument
is not without support. See, e.g., Wegner v. Milwaukee
Mut. Ins. Co., 479 N.W.2d 38, 41–42 (Minn. 1991) (holding that where “innocent third party’s property [was]
damaged by the police in the course of apprehending a
suspect,” such damage was inflicted “for a public use”).
Nevertheless, despite “the considerable appeal of this
position as a matter of policy,” we join the Federal Circuit in rejecting this argument as a matter of law.
AmeriSource Corp., 525 F.3d at 1154–55 (“[S]o long as
the government’s exercise of authority was pursuant
to some power other than eminent domain, then the
plaintiff has failed to state a claim for compensation

App. 18
under the Fifth Amendment. The innocence of the
property owner does not factor into the determination.”
(citation omitted) (citing Bennis, 516 U.S. at 453)).
Finally, contrary to the Lechs’ position, we see no
indication that defining the police power broadly
enough to encompass the defendants’ actions in this
case will signal to police they may “act with impunity
to destroy property” or deprive them of “reason to limit
the destruction” they cause simply “because they will
not bear the burden of the cost and will be absolved of
any responsibility” for their actions. Aplt. Br. 31. This
argument overlooks other limits placed on the police
power. Indeed, even the Lechs concede that the police
power is subject to the requirements of the Due Process Clause. See Lambert v. California, 355 U.S. 225,
228 (1957); AmeriSource, 525 F.3d at 1154 (“As expansive as the police power may be, it is not without limit.
The limits, however, are largely imposed by the Due
Process Clause.”); Lowther v. United States, 480 F.2d
1031, 1033–34 (10th Cir. 1973) (holding that where
government “destroyed appellee’s property without
having any authority in law to do it,” its actions were
“contrary to the [D]ue [P]rocess [C]lause of the Fifth
Amendment”). And as the defendants point out, police
officers who willfully or wantonly destroy property
may also be subject to tort liability. See, e.g., Colo. Rev.
Stat. § 24-10-118(2)(a).

App. 19
Conclusion
Because (1) the defendants’ law-enforcement actions fell within the scope of the police power and (2)
actions taken pursuant to the police power do not
constitute takings, the defendants are entitled to summary judgment on the Lechs’ Takings Clause claims.
We therefore affirm the district court’s ruling.
Entered for the Court
Nancy L. Moritz
Circuit Judge

App. 20
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Judge Philip A. Brimmer
Civil Action No. 16-cv-01956-PAB-MJW
LEO LECH,
ALFONSIA LECH, and
JOHN LECH,
Plaintiffs,
v.
CHIEF JOHN A. JACKSON,
COMMANDER DUSTIN VARNEY,
OFFICER MIC SMITH,
OFFICER JEFF MULQUEEN,
OFFICER AUSTIN SPEER,
OFFICER JARED ARTHUR,
OFFICER BRYAN STUEBINGER,
OFFICER JUAN VILLALVA,
OFFICER ANDY WYNDER,
OFFICER ANTHONY COSTARELLA,
OFFICER ROB HASCHE,
of the Greenwood Village Police Department,
individually and in their official capacities,
and
THE CITY OF GREENWOOD VILLAGE,
Defendants.

App. 21
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

(Filed Jan. 8, 2018)
This matter is before the Court on Defendants’
Motion and Brief in Support of Summary Judgment
[Docket No. 47] and Plaintiffs’ Motion for Partial Summary Judgment on the Takings Clause and Due Process Issues [Docket No. 48]. This Court has jurisdiction
pursuant to 28 U.S.C. §§ 1331 and 1367.
I.

BACKGROUND

The following facts are undisputed unless noted
otherwise. In 2013, plaintiffs Leo and Alfonsina Lech
purchased the property at 4219 South Alton Street in
Greenwood Village, Colorado, both as an investment
and as a place for their son, plaintiff John Lech, to live.
Docket No. 47 at 2, ¶ 1; Docket No. 54 at 1, ¶ 1. The
home was a bi-level home that backed directly to Interstate 225. Docket No. 47 at 2, ¶¶ 2-3. At the time of the
events giving rise to this lawsuit, John Lech lived at
the property with his girlfriend, Anna Mumzhiyan,
and her son. Id., ¶ 4.
The events at issue in this case occurred on June
3-4, 2015. Docket No. 47 at 1; Docket No. 48 at 1. In the
afternoon of June 3, 2015, an officer with the Aurora
Police Department was dispatched to a local Walmart
to assist in a shoplifting investigation. Docket No. 47

App. 22
at 5-6, ¶ 17.1 However, after the officer confronted the
shoplifting suspect and attempted to escort him back
to the store’s loss prevention office, the suspect fled the
scene in a vehicle at high speed. Id.; Docket No. 47-9 at
2.2 The officer found the vehicle abandoned, Docket No.
47 at 6, ¶ 18, and later observed the suspect cross the
northbound lanes of Interstate 225 on foot. Id. A civilian informed the officer that she saw the suspect with
a black semi-automatic pistol. Id.
The Greenwood Village Police Department
(“GVPD”) was notified through dispatch that the Aurora Police Department was pursuing an armed suspect – later identified as Robert Jonathan Seacat – on
foot near the northern border of Greenwood Village.
Id., ¶ 19. At approximately 1:54 p.m., GVPD responded
to a burglar alarm at plaintiffs’ residence. Id., ¶ 20.
GVPD learned that a nine-year-old boy – Anna
Mumzhiyan’s son, D.Z. – was present in the home
when Seacat entered, though he was able to leave the
residence unharmed. Id.; Docket No. 4 at 3, ¶ 10. Officers positioned their vehicles in the driveway to block
any attempt by Seacat to drive a vehicle out of the garage. Docket No. 47 at 6-7, ¶ 21. As one officer was getting out of his car, a bullet fired from inside the garage

1

Aurora is a municipality located near Greenwood Village.
Defendants state that, in fleeing the scene, the suspect attempted to run the officer over with his vehicle. Docket No. 47 at
5-6, ¶ 17. Plaintiffs assert that this is a legal conclusion that has
yet to be proven in court. Docket No. 54 at 2, ¶ 17.
2

App. 23
went through the garage door and struck the police
car’s hood. Id.3
From the outset, GVPD deemed the incident a
“high-risk, barricade suspect situation.” Docket No. 47
at 7, ¶ 22. Under the GVPD manual, a “barricade situation” is defined as a “standoff created by an armed or
potentially armed suspect in any location . . . who is
refusing to comply with police demands for surrender.”
Id. at 4, ¶ 11. The manual defines a high-risk situation
as “[t]he arrest or apprehension of an armed or potentially armed subject where the likelihood of armed resistence is high.” Id.
Shortly after shots were fired through the garage
door, Commander Dustin Varney of the GVPD arrived
on scene and assumed the role of incident commander.
Id. at 7, ¶ 23. As incident commander, Commander Varney was directly in charge of deploying resources and
managing events during the incident. Id. Commander
Varney secured the scene, set up tactical command
posts, and activated GVPD’s Emergency Response and
Crisis Negotiation Teams. Id., ¶ 24. He also shut off the
gas and water to the home, restricted overhead airspace, and sent a reverse 911 call out to residents in
the neighborhood informing them of safety protocols.
Id.

3

Although plaintiffs do not deny that a bullet struck the car’s
hood, they contend that defendants’ statement that Mr. Seacat
“fired at the officers” constitutes speculation about Mr. Seacat’s
state of mind. Docket No. 54 at 3, ¶ 21.

App. 24
For approximately four and a half hours, GVPD
negotiators tried to get Seacat to surrender. Id. at 8,
¶ 30; Docket No. 54 at 4, ¶ 31; Docket No. 47-10 at 1.
GVPD negotiated with Seacat via his cellphone and, at
Seacat’s request, brought Seacat’s sister to the scene.
Docket No. 47 at 8, ¶¶ 29-30. GVPD also played messages from Seacat’s family members over a loudspeaker. Id. Despite these efforts, Seacat did not
surrender. Id.
At approximately 7:11 p.m., when there had been
no sightings of Seacat for several hours, Commander
Varney authorized the firing of two 40 mm rounds of
cold gas munitions through a window for the purpose
of getting Seacat out of the residence. Id., ¶ 31. This
tactic did not elicit a response. Id.
About the same time, Commander Varney authorized officers to shut off Seacat’s cell phone and to deliver a “throw” phone and a robot into the home. Id.,
¶ 32; Docket No. 47-10 at 1-2. GVPD believed at this
point that Seacat was barricaded on the top floor of the
residence. Docket No. 47 at 9, ¶ 33. To enable delivery
of a robot and the throw phone, officers breached the
front and rear doors of the residence using a BearCat
armored vehicle. Id. at 9, ¶¶ 34-35; Docket No. 47-10 at
2. Over three hours later, at approximately 10:40 p.m.,
a tactical team for GVPD entered the residence to apprehend Seacat. Docket No. 47 at 9-10, ¶ 36. As the officers attempted to reach the second floor, Seacat fired

App. 25
at them several times. Id.4 The officers were ordered to
leave the home. Id.
Commander Varney authorized the deployment of
additional gas munitions at various times throughout
the incident in an attempt to get Seacat out of the
home. Id., ¶ 37. These efforts were unsuccessful. Id.
In the early morning hours of June 4, 2015, a
throw phone was delivered to the second floor of the
home where officers believed Seacat was hiding. Id.,
¶ 38. Despite calls to the phone and officers’ announcements via loudspeaker, Seacat did not pick up the
phone. Id. Seacat’s personal cell phone was turned
back on at approximately 4:05 a.m., but negotiators
were also unable to reach Seacat on his cell phone. Id.
At approximately 5:14 a.m., Commander Varney
authorized the use of another EOD charge on the east
side of the home for the purpose of locating Seacat and
limiting his movements inside the home. Id., ¶ 39. Officers also continued their negotiation efforts and deployed additional gas munitions in an effort to induce
Seacat to exit the residence. Id. at 11, ¶ 40. These efforts failed. Id.
Due to law enforcement’s inability to communicate
with Seacat or force him out of the residence with the
gas munitions, Commander Varney authorized the use
4

Plaintiffs object to this statement to the extent it attributes
a particular state of mind or intent to Seacat. Docket No. 54 at 4,
¶ 36. However, there appears to be no dispute that Seacat discharged his weapon in the direction of the police officers and in
response to their presence.

App. 26
of the BearCat to open up holes in the back of the home.
Id., ¶ 41. Commander Varney instructed the officers to
“take as much of the building as needed without making the roof fall in.” Docket No. 47-4 at 20, 50:12-21;
Docket No. 47-16 at 6; Docket No. 54-3 at 2, 103:4-13
(Varney deposition). Chief John Jackson, the Chief of
Police for GVPD at the time of the incident, testified
that he and Commander Varney discussed this instruction and, specifically, the need to use destructive tactics
“for a purpose rather than simply taking apart the
house.” Id. at 20-21, 50:25-51:10; Docket No. 53 at 6,
¶ 2 (admitting that Chief Jackson was the Chief of Police at the time of the incident). It is undisputed that
the purpose of opening up holes in the side of the home
was threefold: (1) to create sightlines into the home for
the purpose of enabling officers to locate Seacat; (2) to
make Seacat feel more exposed; and (3) to create gun
ports so snipers could shoot into the residence from a
distance. Docket No. 47 at 11, ¶¶ 41-42.5
After officers had punctured holes in the side of
the home, Commander Varney sent a tactical team into
the residence. Id., ¶ 43. The tactical team succeeded in
disarming Seacat and taking him into custody, thereby
ending the incident after approximately nineteen
hours. Id.
5

In their motion to strike, plaintiffs object to defendants’ assertion that the BearCat was used to “negate [Seacat’s] ability to
ambush officers” on the ground that it is not supported by the record. See Docket No. 80 at 10. The Court need not decide this issue,
however, because it is immaterial to the Court’s resolution of the
parties’ summary judgment motions.

App. 27
As a result of the police actions used during the
standoff, plaintiffs’ home was rendered uninhabitable.
Docket No. 48 at 3, ¶ 11. Plaintiffs ultimately demolished the home and built a new one in its place. Docket
No. 47 at 14, ¶¶ 60-61. Greenwood Village offered
plaintiffs $5,000 to help with temporary living expenses, but it denied any liability for the incident and
declined to provide further compensation. Docket No.
48 at 3, ¶ 13; Docket No. 53 at 7, ¶ 10.
Plaintiffs filed this lawsuit in the District Court
for Arapahoe County, Colorado on June 3, 2016. Docket
No. 1-3 at 1. Plaintiffs’ complaint asserts the following
claims against Greenwood Village and members of the
Greenwood Village Police Department in their individual and official capacities: (1) taking without just compensation in violation of the U.S. and Colorado
constitutions; (2) denial of plaintiffs’ due process rights
under the U.S. and Colorado constitutions: (3) trespass;
(4) negligence; (5) negligent infliction of emotional distress; and (6) intentional infliction of emotional distress. See Docket No. 4. Defendants removed the case
to federal court on August 1, 2016. Docket No. 1. On
July 10, 2017, defendants moved for summary judgment on all claims, Docket No. 47, and plaintiffs moved
for partial summary judgment on their takings and
due process claims. Docket No. 48.
II.

LEGAL STANDARD

Summary judgment is warranted under Federal
Rule of Civil Procedure 56 when the “movant shows

App. 28
that there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a); see Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248-50 (1986). A disputed fact is
“material” if under the relevant substantive law it is
essential to proper disposition of the claim. Wright v.
Abbott Labs., Inc., 259 F.3d 1226, 1231-32 (10th Cir.
2001). Only disputes over material facts can create a
genuine issue for trial and preclude summary judgment. Faustin v. City & Cty. of Denver, 423 F.3d 1192,
1198 (10th Cir. 2005). An issue is “genuine” if the evidence is such that it might lead a reasonable jury to
return a verdict for the nonmoving party. Allen v. Muskogee, 119 F.3d 837, 839 (10th Cir. 1997).
Where “the moving party does not bear the ultimate burden of persuasion at trial, it may satisfy its
burden at the summary judgment stage by identifying
a lack of evidence for the nonmovant on an essential
element of the nonmovant’s claim.” Bausman v. Interstate Brands Corp., 252 F.3d 1111, 1115 (10th Cir.
2001) (internal quotation marks omitted) (quoting Adler v. Wal-Mart Stores, Inc., 144 F.3d 664, 671 (10th Cir.
1998)). “Once the moving party meets this burden, the
burden shifts to the nonmoving party to demonstrate
a genuine issue for trial on a material matter.” Concrete Works of Colo., Inc. v. City & Cty. of Denver, 36
F.3d 1513, 1518 (10th Cir. 1994). The nonmoving party
may not rest solely on the allegations in the pleadings,
but instead must designate “specific facts showing that
there is a genuine issue for trial.” Celotex Corp. v.
Catrett, 477 U.S. 317, 324 (1986) (internal quotation

App. 29
marks omitted). “To avoid summary judgment, the
nonmovant must establish, at a minimum, an inference of the presence of each element essential to the
case.” Bausman, 252 F.3d at 1115. When considering a
motion for summary judgment, a court must view the
evidence in the light most favorable to the non-moving
party. Id.
III. ANALYSIS
Defendants move for summary judgment on all
claims. Plaintiffs move for summary judgment on their
takings and due process claims.
A. Ripeness of Federal Takings and Due
Process Claims
Defendants argue that plaintiffs’ claims under the
Takings and Due Process Clauses of the Fifth and
Fourteenth Amendments are not ripe for review because plaintiffs have failed to exhaust state procedures
for obtaining just compensation. Docket No. 47 at 1618.
Under Williamson County Regional Planning
Commission v. Hamilton Bank of Johnson City, 473
U.S. 172 (1985), if a state provides adequate procedures
for obtaining just compensation, a property owner
must utilize those procedures before bringing a claim
under the Takings Clause of the Fifth Amendment. Id.

App. 30
at 194-95.6 As the Tenth Circuit has recognized, “the
State of Colorado has provided a procedure for obtaining compensation for inverse condemnation.” SK Finance SA v. La Plata Cty., Bd. of Cty. Commis, 126 F.3d
1272, 1276 (10th Cir. 1997) (citing Colo. Rev. Stat. § 381-101 et seq.).7 The failure to utilize that procedure
6

Plaintiffs argue that Williamson County is inapposite because it involved a regulatory taking. See Docket No. 54 at 8. In
contrast to an “actual” taking, or a “direct government appropriation or physical invasion of private property,” a regulatory taking occurs when “government regulation of private property . . .
[is] so onerous that its effect is tantamount to a direct appropriation or ouster.” Lingle v. Chevron U.S.A. Inc., 544 U.S. 528, 537
(2005). Although this is an important distinction, the Supreme
Court’s determination that a plaintiff must exhaust state compensation procedures before bringing a federal takings claim is
predicated on the language of the Takings Clause itself, which
encompasses both physical and regulatory takings. See Williamson Cty., 473 U.S. at 194 (noting that “[t]he Fifth Amendment
does not proscribe the taking of property,” but only “taking without just compensation”); Lingle, 544 U.S. at 537 (explaining that
both physical and regulatory takings are compensable under the
Fifth Amendment). To the extent plaintiffs assert that the Supreme Court’s ripeness holding was based on the developer’s failure in Williamson County to obtain a final decision regarding the
effect of a zoning ordinance, the Court notes that Williamson
County set forth two separate ripeness requirements: (1) “that the
government entity charged with implementing the [challenged]
regulations has reached a final decision regarding the application
of the regulations to the property at issue”; and (2) that the plaintiff has “sought just compensation through the available state
procedures and been denied relief.” Schanzenbach v. Town of
LaBarge, 706 F.3d 1277, 1281-82 (10th Cir. 2013); see also Williamson Cty., 473 U.S. at 186-95. Although both requirements
served as the basis for the Supreme Court’s holding in Williamson
County, only the second is at issue in this case.
7
Colo. Rev. Stat. § 38-1-101 prohibits takings without just
compensation and provides that, “[i]n all cases in which

App. 31
thus renders a federal takings claim unripe for review.
See id. (federal takings claim unripe because plaintiff
had not availed itself of Colorado’s statutory procedure
for obtaining just compensation).
The requirement that a property owner exhaust
state compensation procedures before seeking redress
under federal law has also been applied to due process
claims that assert “the same loss upon which the . . .
takings claim is based.” Rocky Mountain Materials &
Asphalt, Inc. v. Bd. of Cty. Commis of El Paso Cty., 972
F.2d 309, 311 (10th Cir. 1992). In such circumstances,
courts in this circuit have “required the plaintiff to utilize the remedies applicable to the takings claim.” Id.;
see also Miller v. Campbell Cty., 945 F.2d 348, 352 (10th
Cir. 1991) (explaining that, when “factual situation [ ]
falls squarely within” Takings Clause, “[i]t is appropriate . . . to subsume the more generalized Fourteenth
Amendment due process protections within the more
particularized protections of the Just Compensation
Clause”). Accordingly, the failure to bring an inverse
condemnation action in state court renders the due
process claim “likewise not ripe because it is in essence
based on the same deprivation.” Rocky Mountain Materials & Asphalt, Inc., 972 F.2d at 311.
Since its decision in Williamson County, however,
the Supreme Court has clarified that the state compensation requirement is based on prudential rather than
compensation is not made by the state in its corporate capacity,
such compensation shall be ascertained by a board of commissioners of not less than three disinterested and impartial freeholders
. . . or by a jury when required by the owner of the property. . . .”

App. 32
jurisdictional concerns. See Horne v. Dep’t of Agric., 569
U.S. 513, 525-26 (2013). Moreover, Williamson County
“does not preclude state courts from hearing simultaneously a plaintiff ’s request for compensation under
state law and the claim that, in the alternative, the denial of compensation would violate the Fifth Amendment of the Federal Constitution.” San Remo Hotel,
L.P. v. City & Cty. of San Francisco, 545 U.S. 323, 346
(2005). Relying on these two propositions, courts have
held that a defendant waives the Williamson County
state compensation requirement by removing a case to
federal court when the plaintiff ’s original state court
action asserted both state and federal claims for inverse condemnation. See, e.g., Lilly Investments v.
City of Rochester, 674 F. App’x 523, 530-31 (6th Cir.
Jan. 5, 2017) (unpublished); Sherman v. Town of Chester, 752 F.3d 554, 563-64 (2d Cir. 2014); Sansotta v.
Town of Nags Head, 724 F.3d 533, 544-47 (4th Cir.
2013); Race v. Bd. of Cty. Commis of the Cty. of Lake,
Colo., No. 15-cv-1761-WJM-KLM, 2016 WL 1182791, at
*3-4 (D. Colo. Mar. 28, 2016); River N. Props., LLC v.
City & Cty. of Denver, No. 13-cv-01410-CMA-CBS, 2014
WL 1247813, at *2-9 (D. Colo. Mar. 26, 2014); Merrill v.
Summit Cty., 2009 WL 530569, at *3 (D. Utah Mar. 2,
2009). As the Fourth Circuit has explained, application
of the waiver doctrine in these circumstances prevents
a state or political subdivision from “manipulat[ing]
litigation to deny a plaintiff a forum for his claim.”
Sansotta, 724 F.3d at 545.8
8

At least one court has expressed skepticism about this justification, noting that dismissal on ripeness grounds is not an

App. 33
The Court finds this reasoning persuasive. Plaintiffs in this case did exactly what they were permitted
to do by filing both their state and federal takings
claims in state court. See San Remo Hotel, 545 U.S. at
346. Because state courts – like federal courts – adhere
to the Williamson County requirement and adjudicate
a plaintiff ’s state inverse condemnation claims before
reaching the merits of any companion federal claims,
dismissal of the federal claims following removal
would “put[ ] the case in effectively the same position”
as if the case had remained in state court. Race, 2016
WL 1182791, at *3; see also Claassen v. City & Cty. of
Denver, 30 P.3d 710, 715 (Colo. App. 2000) (stating that,
under Williamson County, “the Fifth Amendment
claims cannot be ripe for judicial review until the companion inverse condemnation claims are resolved”).
The Court agrees that the only thing to be achieved by
such a maneuver is delay. See id. Accordingly, the
Court joins other courts in this district in holding that
defendants waived the Williamson County compensation requirement by removing this case to federal
court. Plaintiffs’ claims are therefore ripe for review.

adjudication on the merits and thus does not preclude a plaintiff
from bringing his federal claims at a later date. See Race, 2016
WL 1182791, at *2. Nevertheless, that court recognized that a
rule waiving the Williamson County compensation requirement
when a defendant removes a case to federal court “discourage[s]
a procedural maneuver that adds nothing to the dispute but delay.” Id. at *3.

App. 34
B. State and Federal Takings Claims
Defendants argue that plaintiffs’ takings claims
under the U.S. and Colorado constitutions fail as a
matter of law because defendants were authorized,
pursuant to their police powers, to damage plaintiffs’
property without triggering the requirement of just
compensation. Docket No. 47 at 23-26.9
The Takings Clause of the U.S. Constitution,
which is applicable to the states through the Fourteenth Amendment, see Chicago, B. & Q.R. Co. v. Chicago, 166 U.S. 226 (1897), states that “private property
[shall not] be taken for public use, without just compensation.” U.S. Const. amend. V. Similarly, Article II,
§ 15 of the Colorado Constitution provides that “[p]rivate property shall not be taken or damaged, for public
or private use, without just compensation.” Colo. const.
9

Defendants claim that because Article II, § 15 of the Colorado Constitution affords broader protections than the federal
Takings Clause, plaintiffs’ inability to survive summary judgment on the state claim requires dismissal of the federal claim.
Docket No. 47 at 17. The Court agrees that the two claims can be
considered together. First, aside from the “damages” clause of Article II, §15 of the Colorado Constitution, which “only applies to
situations in which the damage is caused by government activity
in areas adjacent to the landowner’s land,” the Colorado Supreme
Court has interpreted that section “as consistent with the federal
[takings] clause.” Animas Valley Sand & Gravel, Inc. v. Bd. of Cty.
Commis, 38 P.3d 59, 63-64 (Colo. 2001). Second, neither the Colorado courts applying the Colorado Constitution nor the courts in
this circuit applying the federal constitution have addressed the
precise issue presented in this case – whether damage to property
caused by law enforcement’s efforts to apprehend a suspect barricaded inside an innocent third party’s home constitutes a taking
without just compensation.

App. 35
art. II, § 15. These provisions are “designed not to limit
the governmental interference with property rights
per se, but rather to secure compensation in the event
of otherwise proper interference amounting to a taking.” Lingle, 544 U.S. at 537 (quoting First English
Evangelical Lutheran Church of Glendale v. Cty. of Los
Angeles, 482 U.S. 304, 314 (1987)). At the core of the
compensation requirement is the principle that government should not be permitted to “forc[e] some people alone to bear public burdens which, in all fairness
and justice, should be borne by the public as a whole.”
Armstrong v. United States, 364 U.S. 40, 49 (1960); Bd.
of Cty. Commis of Saguache Cty. v. Flickinger, 687 P.2d
975, 983 (Colo. 1984).
However, the prohibition against uncompensated
governmental interference with private property has
certain limitations. The Takings Clause is concerned
with the government’s power of eminent domain.
Where the government acquires private property by
virtue of some other authority, just compensation is not
required. See Bennis v. Michigan, 516 U.S. 442, 452
(1996). Consistent with this limitation, cases applying
both state and federal takings clauses have historically
distinguished between eminent domain authority,
which permits the taking of private property for public
use, and the police power, which allows states to regulate private property for the protection of public
health, safety, and welfare. See, e.g., Mugler v. Kansas,
123 U.S. 623, 668-69 (1887) (distinguishing between
eminent domain and police powers and stating, in regard to the latter, that “[a] prohibition simply upon the

App. 36
use of property for purposes that are declared . . . to be
injurious to the health, morals, or safety of the community, cannot, in any just sense, be deemed a taking or
an appropriation of property for the public benefit”);
City & Cty. of Denver v. Desert Truck Sales, Inc., 837
P.2d 759, 766-67 (Colo. 1992) (noting that “[p]olice
power should not be confused with eminent domain, in
that the former controls the use of property by the
owner for the public good, authorizing its regulation
and destruction without just compensation, whereas
the latter takes property for public use and compensation is given for property taken, damaged, or destroyed”). While exercise of the eminent domain power
triggers the requirement of just compensation, exercise of the police power is noncompensable. See State
Dep’t of Highways, Div. of Highways v. Davis, 626 P.2d
661, 667 (Colo. 1981) (noting that a restriction imposed
under the police power is a loss without an injury).
“Like the state, municipalities have broad police powers. . . .” Town of Dillon v. Yacht Club Condominiums
Home Owners Ass’n, 325 P.3d 1032, 1038 (Colo. 2014).
Defendants in this case argue that they were acting pursuant to their police powers when they damaged plaintiffs’ home. Docket No. 47 at 25. Specifically,
they contend that Seacat posed a serious and ongoing
threat and that the actions defendants took in apprehending him were necessary to protect the “safety, morals, health and general welfare of the public.” Id.
Plaintiffs respond that there is no “public safety” or
emergency exception to the U.S. or Colorado constitutions. Docket No. 48 at 7; Docket No. 54 at 6, 10. In

App. 37
addition, they assert that the distinction between a
taking requiring just compensation and the exercise of
a state’s police powers is not a matter of settled law.
Docket No. 54 at 12.
Courts in this circuit applying either Colorado law
or federal law have not considered whether damage
sustained to an innocent third party’s home as a result
of police efforts to apprehend a suspect gives rise to a
compensable taking under the Colorado or U.S. constitutions.10 However, a majority of courts that have considered whether the just compensation requirement
applies to property damage caused by police officers in
the performance of their duties have concluded that it
does not. In an analogous case, the California Supreme
Court held that property damage caused by law enforcement’s efforts to apprehend a suspect barricaded
inside a store did not give rise to an inverse condemnation action under the California Constitution. Customer Co. v. City of Sacramento, 895 P.2d 900, 904-05
(Cal. 1995).11 The court reasoned that the just compensation requirement had never “been applied to require
a public entity to compensate a property owner for
property damage resulting from the efforts of law
10

The Court notes that the parties’ factual disputes, to the
extent they exist, have no bearing on this question. Plaintiffs contend that the destruction of their property constituted a taking
regardless of whether defendants’ actions were reasonable under
the circumstances. See Docket No. 48 at 5.
11
Article I, Section 19(a) of the California Constitution provides that “[p]rivate property may be taken or damaged for a public use and only when just compensation . . . has first been paid to
. . . the owner.”

App. 38
enforcement officers to enforce the criminal laws.” Id.
at 906. Instead, claims for property damage caused by
public employees in the performance of their duties
had generally been understood as arising in tort. Id. at
909.
The California Supreme Court also relied on the
so-called “emergency exception” – “a specific application of the general rule that damage to, or even destruction of, property pursuant to a valid exercise of
the police power often requires no compensation under
the just compensation clause” – to support its conclusion that the property damage alleged in the case was
noncompensable under California’s takings clause. Id.
at 909. The emergency exception has historically been
applied to deny compensation where property is destroyed to avert a public emergency, such as a fire, see,
e.g., Bowditch v. City of Boston, 101 U.S. 16, 18 (1879),
or the advance of enemy troops, see, e.g., United States
v. Caltex, Inc., 344 U.S. 149 (1952). The court concluded
that the case fell within the scope of this exception,
given that “law enforcement officers must be permitted
to respond to emergency situations that endanger public safety, unhampered by the specter of constitutionally mandated liability for resulting damage to private
property.” Customer Co., 895 P.2d at 910-11.
Cases decided before and after Customer Co. have
similarly concluded that property damage caused by
law enforcement officials in the performance of their
duties does not give rise to a claim for just compensation. See, e.g., Johnson v. Manitowoc Cty., 635 F.3d 331,
336 (7th Cir. 2011) (holding that property damage

App. 39
resulting from officers’ execution of search warrant did
not give rise to claim for just compensation because officers were acting pursuant to police powers); AmeriSource Corp. v. United States, 525 F.3d 1149, 1153
(Fed. Cir. 2008) (holding that seizure and retention of
innocent third party’s property for use in criminal
prosecution did not give rise to claim for just compensation, even where government action rendered property useless, because “[p]roperty seized and retained
pursuant to the police power is not taken for a ‘public
use’ in the context of the Takings Clause”); Jones v.
Phila. Police Dep’t, 57 F. App’x 939, 941-43 (3d Cir.
2003) (unpublished) (holding, under multi-factor balancing test, that property damage resulting from police officers’ execution of search warrant did not entitle
property owner to compensation under the Fifth
Amendment); Lawmaster v. Ward, 125 F.3d 1341, 1351
(10th Cir. 1997) (holding that plaintiff failed to allege
any facts showing how property was taken for public
use under the Fifth Amendment where property was
damaged during officers’ execution of search warrant);
Eggleston v. Pierce Cty., 64 P.3d 618, 623, 627 (Wash.
2003) (distinguishing between police power and power
of eminent domain and holding that plaintiff was not
entitled to just compensation after police rendered
home uninhabitable by removing load-bearing wall for
use as evidence during execution of search warrant);
Kelley v. Story Cty. Sheriff, 611 N.W.2d 475, 482 (Iowa
2000) (concluding that property damage caused by officers during execution of search warrant “was a reasonable exercise of police power and therefore does not
amount to a taking of plaintiff ’s property within the

App. 40
meaning” of the Iowa constitution); McCoy v. Sanders,
148 S.E.2d 902 (Ga. App. 1966) (holding that property
owner was not entitled to just compensation because
officers were acting pursuant to state’s police powers
when they drained fish pond in order to locate body of
murder victim).
At least two courts have reached the opposite conclusion. In Steele v. City of Houston, 603 S.W.2d 786
(Tex. 1980), the Texas Supreme Court held that police
officers’ destruction of the plaintiffs’ home in attempting to apprehend three escaped convicts supported a
cause of action under the takings clause of the Texas
Constitution. Id. at 791. The court declined to “differentiate between an exercise of police power . . . and eminent domain,” finding the distinction unhelpful “in
determining when private citizens affected by governmental actions must be compensated.” Id. at 789. However, the court noted that the defendant would be
permitted on remand to “defend its actions by proof of
a great public necessity.” Id. at 792.
Similarly, in Wegner v. Milwaukee Mutual Insurance Co., 479 N.W.2d 38 (Minn. 1991), the Minnesota
Supreme Court held that “where an innocent third
party’s property is damaged by the police in the course
of apprehending a suspect, that property is damaged
within the meaning of the [Minnesota] constitution.”
Id. at 41-42. Similar to this case and Steele, Wegner involved the destruction of an innocent third party’s
home by police officers in their attempt to apprehend a
suspect who had taken refuge inside. Id. at 39. In holding that the city was required to provide compensation

App. 41
under the state takings clause, the court rejected the
dichotomy between a state’s police power and its power
of eminent domain, emphasizing that it would be unjust for an innocent homeowner to bear the entire loss
caused by government action benefitting the public as
a whole. Id. at 40, 42. Relying on this principle, the
court went further than Steele and held that the city
could not avoid liability based on the doctrine of public
necessity. Id. at 42.
Plaintiffs urge this Court to dispense with the distinction between police powers and eminent domain
and adopt the reasoning of Steele and Wegner. See
Docket No. 48 at 7-8; Docket No. 54 at 12. Plaintiffs
suggest that the holdings in those cases better comport
with the principle that property owners should not be
forced “to bear public burdens which, in all fairness
and justice, should be borne by the public as a whole.”
Docket No. 54 at 12. Although the Court is sympathetic
to plaintiffs’ loss, it finds these arguments unpersuasive.
As an initial matter, the Court agrees that “simply
labeling the actions of the police as an exercise of the
police power cannot justify the disregard of the constitutional inhibitions.” Docket No. 48 at 8 (quoting
Wegner, 479 N.W.2d at 40). But while a state’s police
powers are “not without limit[,]. . . . [t]he limits . . . are
largely imposed by the Due Process Clause.” AmeriSource Corp., 525 F.3d at 1154; Town of Dillon, 325
P.3d at 1039 (“Though broad, a municipality’s police
powers are limited by due process.”). The holdings in
both Steele and Wegner were based in part on a

App. 42
determination that the distinction between the police
power and the power of eminent domain is no longer
helpful in determining whether an individual is entitled to just compensation. See Wegner, 479 N.W.2d at
40; Steele, 603 S.W.2d at 789. The Court agrees that
this line is poorly defined. See Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S. 419, 425 (1982) (accepting court of appeals’ determination that law fell
within state’s police power but stating that “[i]t is a
separate question . . . whether an otherwise valid regulation so frustrates property rights that compensation must be paid”); Collopy v. Wildlife Comm’n, Dep’t
of Nat. Res., 625 P.2d 994, 1001 (Colo. 1981) (suggesting
that difference between violation of just compensation
clause and valid exercise of the state’s police power lies
in degree of deprivation); see generally Christopher D.
Supino, The Police Power and “Public Use”: Balancing
the Public Interest Against Private Rights Through
Principled Constitutional Distinctions, 110 W. Va. L.
Rev. 711 (2008) (discussing Supreme Court’s inability
to articulate principled distinction between Public Use
Clause and police power). Nevertheless, the Court declines to dispense with the distinction for two reasons.
First, courts have continued to differentiate between an exercise of the police power and eminent domain in determining whether a compensable taking
has occurred under the U.S. and Colorado constitutions. See, e.g., AmeriSource, 525 F.3d at 1153-54 (stating that, because seizure of property “to enforce
criminal laws” was “clearly within the bounds of the
police power,” property was “not seized for public use

App. 43
within the meaning of the Fifth Amendment” (internal
quotations omitted)); Young v. Larimer Cty. Sheriff ’s
Office, 356 P.3d 939, 943 (Colo. App. 2014) (citing AmeriSource and holding that seizure of private property
for use in criminal prosecution was within scope of
city’s police power and thus taking for public use did
not occur). By contrast, the Steele court’s decision to
dispense with the distinction was supported by a series
of recent state court cases applying the just compensation requirement of the Texas Constitution. See Steele,
603 S.W.2d at 789 (citing “[r]ecent decisions by this
court . . . broadly appl[ying] the underlying rationale
to takings by refusing to differentiate between an exercise of police power . . . and eminent domain”).
Second, to the extent that the line between these
two concepts is blurry, this case does not come close to
that line. Not only have courts held that the enforcement of criminal laws clearly falls within the scope of
a state’s police power, see Kelley, 611 N.W.2d at 481
(“Enforcement of the criminal laws is clearly within
the county’s power to provide for the health, safety and
welfare of its citizens.”), but defendants in this case
were also responding to an emergency situation.
At least one court has held that police officers’ destruction of a store in the course of apprehending an
armed felony suspect falls within the “emergency exception” to the just compensation requirement. See
Customer Co., 895 P.2d at 909. As the court in Customer Co. noted, “[t]he emergency exception has had a
long and consistent history in both state and federal
courts” and represents a “specific application of the

App. 44
general rule that damage to, or even destruction of,
property pursuant to a valid exercise of the police
power often requires no compensation under the just
compensation clause.” Id.; see also Caltex, 344 U.S. at
154 (“[T]he common law had long recognized that in
times of imminent peril – such as when fire threatened
a whole community – the sovereign could, with immunity, destroy the property of a few that the property
of many and the lives of many more could be saved.”).
Courts have generally accepted the continued viability
of the emergency exception under both state and federal constitutions, even as they disagree over the distinction between police power and eminent domain.
See, e.g., Customer Co., 895 P.2d at 934 (Baxter, J., dissenting) (disagreeing that property damage in case
was noncompensable, but recognizing continued viability of emergency exception); Steele, 603 S.W.2d at
789, 792 (rejecting dichotomy between police power
and eminent domain, but stating that defendant could
“defend its actions [on remand] by proof of a great public necessity”). But see Wegner, 479 N.W.2d at 42 (declining to permit public necessity defense and stating
that “better rule, in situations where an innocent third
party’s property is taken, damaged or destroyed by the
police in the course of apprehending a suspect, is for
the municipality to compensate the innocent party for
the resulting damages”).
The Court is persuaded by the California Supreme
Court’s reasoning in Customer Co. and finds that the
undisputed facts in this case demonstrate that defendants’ actions in apprehending Seacat fall within the

App. 45
scope of the emergency exception. Law enforcement
officials were faced with an armed suspect who had
unlawfully entered plaintiffs’ home and barricaded
himself inside. Docket No. 47 at 6-7, ¶¶ 20, 22;
Docket No. 67 at 9, ¶ 10. The ensuing nineteen-hour
standoff was deemed a “high-risk, barricade suspect
situation,” Docket No. 47 at 4, 7, ¶¶ 11, 22, in which
Seacat fired at GVPD officers on two occasions. Id. at
6, 10, ¶¶ 21, 36.12 Finally, it is undisputed that “[a]ll law

12

At least two courts have indicated that the emergency exception only applies “if the State demonstrates the existence of
imminent danger and an actual emergency giving rise to actual
necessity, an inquiry that is fact-specific.” Brewer v. State, 341
P.3d 1107, 1118 (Alaska\2014); see also TrinCo Investment Co. v.
United States, 722 F.3d 1375, 1380 (Fed. Cir. 2013) (reversing dismissal of complaint under Fed. R. Civ. P. 12(b)(6) on ground that
“[i]t [was] impossible,” based on allegations in complaint, “to determine whether the requisite imminent danger and actual emergency giving rise to the actual necessity of the Forest Service’s
burning of TrinCo’s property was present to absolve the Government under the doctrine of necessity”). In this case, there is no
dispute that Seacat’s actions posed a threat to the public and that
defendants’ actions were taken in response to that threat. To the
extent Brewer and TrinCo further suggest that defendants must
show their response was reasonable, the Court finds that such an
inquiry sounds in due process rather than takings. See Lingle v.
Chevron U.S.A., Inc., 544 U.S. 528, 540 (2005) (holding that
whether a government action “substantially advances” a legitimate state interest is “an inquiry in the nature of a due process,
not a takings, test”); Sinaloa Lake Owners Ass’n v. City of Simi
Valley, 882 F.2d 1398,1409-10 (9th Cir. 1989) (looking to factors
such as “the need for the governmental action in question, the relationship between the need and the action, the extent of harm
inflicted, and whether the action was taken in good faith or for
the purpose of causing harm” in determining whether defendants’
actions in breaching dam and destroying lake violated plaintiffs’

App. 46
enforcement actions were done to remove Seacat from
the residence while making all efforts to preserve life.”
Id. at 11, ¶ 44.13
Defendants were acting in response to a tangible
threat to the health and safety of the public and the
tactical decisions that ultimately destroyed plaintiffs’
home were made pursuant to the state’s police powers
and not the power of eminent domain. See Customer
Co., 895 P.2d at 909. Accordingly, the damaging of
plaintiffs’ home does not constitute a compensable taking under either the U.S. or Colorado constitutions.
Summary judgment is therefore appropriate in favor of defendants on plaintiffs’ takings claims.
C. Federal Due Process Claims
Plaintiffs claim that defendants violated their due
process rights under the Fifth and Fourteenth Amendments of the U.S. Constitution by destroying their
substantive due process rights), overruled on other grounds by
Armendariz v. Penman, 75 F.3d 1311 (9th Cir. 1996).
13
In their motion to strike, plaintiffs argue that the same
fact, asserted on page 31 of defendants’ motion for summary judgment, is unsupported by a reference to the record. See Docket No.
80 at 17, ¶ 36. But plaintiffs admitted this fact in their response
to defendants’ summary judgment motion. Docket No. 54 at 4,
¶ 44. Accordingly, it is undisputed for purposes of summary judgment. To the extent Plaintiffs’ Motion to Strike Defendants’ Evidence in Motions Practice [Docket No. 80] asserts additional
arguments not already addressed in this Order, those arguments
are immaterial to the Court’s resolution of the parties’ crossmotions for summary judgment. Those portions of plaintiffs’ motion to strike are therefore denied as moot.

App. 47
property without providing just compensation. Docket
No. 48 at 9-12.14
The Fourteenth Amendment of the U.S. Constitution provides that no state shall “deprive any person of
life, liberty, or property, without due process of law.”
U.S. Const. Amend. XIV. This guarantee contains both
procedural and substantive components. See Cty. of
Sacramento v. Lewis, 523 U.S. 833, 840 (1998). Procedural due process generally requires that a state follow
certain procedures before depriving an individual of a
protected liberty or property interest. See Mathews v.
Eldridge, 424 U.S. 319, 333 (1976) (“The fundamental
requirement of [procedural] due process is the opportunity to be heard ‘at a meaningful time and in a meaningful manner.’ ” (quoting Armstrong v. Manzo, 380 U.S.
545, 552 (1965)). In contrast, substantive due process
serves as a prohibition against arbitrary government
action, regardless of the fairness of the procedures
used. Cty. of Sacramento, 523 U.S. at 840, 845. Plaintiffs’ complaint is unclear about whether they are asserting a violation of their procedural or substantive
due process rights. See Docket No. 4 at 9-10. As

14

Although plaintiffs also assert they were deprived of their
due process rights under the Fifth Amendment, see Docket No. 48
at 9, only the Fourteenth Amendment is applicable where, as
here, the defendants are state actors. See Bartkus v. Illinois, 359
U.S. 121, 124 (1959); Lyle v. Dodd, 857 F. Supp. 958, 966 (N.D.
Ga. 1994) (“It is axiomatic that the Fifth Amendment due process
clause applies only to the federal government, while the Fourteenth Amendment due process clause applies to the states.”).

App. 48
discussed below, however, plaintiffs’ claim cannot survive summary judgment under either theory.
1. Procedural Due Process
Plaintiffs contend that defendants violated their
procedural due process rights by “unilaterally determin[ing] . . . that taking of property was necessary and
legal under the circumstances” and failing to provide
just compensation. Docket No. 48 at 10. They further
suggest that defendants lacked authority for their actions. Id. at 11. Both arguments are unavailing.
First, although due process generally requires
that an individual be given “an opportunity for some
kind of hearing prior to the deprivation of a significant
property interest,” Memphis Light, Gas & Water Division v. Craft, 436 U.S. 1, 19 (1978) (internal quotations
omitted), pre-deprivation due process is not required
when a state is confronted with an emergency situation. See Miller v. Campbell Cty., 945 F.2d 348, 353
(10th Cir. 1991) (citing Hodel v. Virginia Surface Mining & Recl. Ass’n, 452 U.S. 264, 299-300 (1981)); Hodel,
452 U.S. at 300 (“Protection of the health and safety of
the public is a paramount governmental interest which
justifies summary administrative action.”). Because
the undisputed facts in this case demonstrate that defendants were faced with an emergency situation, see
Docket No. 47 at 4, 6-8, ¶¶ 11, 20, 22, 27, plaintiffs were
not entitled to a hearing or other kind of process prior
to the damaging of their home. Plaintiffs do not challenge this conclusion. See Docket No. 54 at 10; Docket

App. 49
No. 63 at 7. Instead, they contend that the only issue
in this case is “post-taking compensation.” Docket No.
54 at 10. The meaning of this statement is unclear.
However, to the extent plaintiffs are asserting that
they have been denied post-deprivation procedural due
process, their claim is belied by the existence of this
lawsuit. See Miller, 945 F.2d at 354 (holding that “the
condemnation process (or a revival of plaintiffs’ Just
Compensation claim should condemnation prove to be
inadequate) offer[ed] the plaintiffs a sufficient postdeprivation hearing to obtain just compensation for
the loss of their property”).15
Plaintiffs also assert that there was no “law, regulation, or ordinance authorizing [defendants] to take
property.” Docket No. 48 at 11. It is not clear what
plaintiffs are arguing here. If they mean to contend
15

Although plaintiffs argue that Colorado’s inverse condemnation procedures are inadequate to compensate them for their
loss, see Docket No. 83 at 7, they do not argue that the procedures
available through the state and federal court systems are generally inadequate to satisfy due process requirements. The conclusion that plaintiffs’ ability to pursue this lawsuit constitutes
adequate post-deprivation due process is not altered by the fact
that plaintiffs’ claims may ultimately prove unsuccessful. See
Stanley v. McMillian, 594 F. App’x 478, 480 (10th Cir. 2014) (unpublished) (“Plaintiff ’s speculation that the state court would
likely dismiss his complaint for lack of exhaustion does not prove
the state has failed to provide adequate procedural safeguards for
his due process rights. . . .”); see also Zinermon v. Burch, 494 U.S.
113, 125 (1990) (“In procedural due process claims, the deprivation by state action of a constitutionally protected interest in ‘life,
liberty, or property’ is not in itself unconstitutional; what is unconstitutional is the deprivation of such an interest without due
process of law.”).

App. 50
that defendants lacked formal powers of eminent domain, the Court has already determined that this case
involves an exercise of the state’s police powers in an
emergency situation, not eminent domain. Moreover,
defendants are statutorily authorized to enforce criminal laws – a power which necessarily entails the authority to apprehend suspects. Under Colo. Rev. Stat.
§ 31-15-401(1)(a), municipalities have the power “[t]o
regulate the police of the municipality, including employing certified peace officers to enforce all laws of the
state of Colorado . . . , and pass and enforce all necessary police ordinances.” Additionally, § 2-5-40 of the
Greenwood Village Municipal Code provides that
members of the Greenwood Village Police Department
“shall be the enforcement officers of the City and shall
see that the provisions of the ordinances of the City
and the laws of the State are complied with.” Greenwood Village, Colo., Code § 2-5-40 (2011). There is no
contention that defendants were not members of the
Greenwood Village Police Department. Accordingly,
any assertion that defendants’ actions were not authorized by any law, regulation, or ordinance, see
Docket No. 48 at 11, is without merit.
In summary, the Court finds that plaintiffs have
failed to demonstrate a deprivation of their procedural
due process rights. Dismissal of this claim is therefore
appropriate.

App. 51
2. Substantive Due Process
Plaintiffs also make a cursory reference to substantive due process. See Docket No. 48 at 9; Docket
No. 63 at 7. But plaintiffs do not appear to assert a violation of their substantive due process rights separate
from the claim that they were denied just compensation. See Docket No. 54 at 10 (stating that only issue in
case is “post-taking compensation”). As previously determined, plaintiffs are not entitled to just compensation under the takings clauses of the U.S. and Colorado
Constitutions, and plaintiffs’ ability to seek just compensation in both state and federal court satisfies the
requirements of post-deprivation procedural due process.
To the extent plaintiffs intended to assert a separate substantive due process claim based on defendants’ actions during the incident, they have failed to
demonstrate a genuine issue for trial. See Concrete
Works of Colo., Inc., 36 F.3d at 1518. In their motion for
summary judgment, defendants note that “Plaintiffs
do not specifically plead how Defendants’ actions violated their rights.” Docket No. 47 at 17. Instead of clarifying the nature of their claims, however, plaintiffs
respond with the ambiguous assertion that this case
involves only “post-taking compensation.” Docket No.
54 at 10.
Moreover, although plaintiffs cite the standard
that governs substantive due process claims, see
Docket No. 48 at 9, they do not cite any facts or case
law to show that defendants’ actions were objectively

App. 52
unreasonable or shocking to the conscience. See generally Kingsley v. Hendrickson, 135 S. Ct. 2466, 2472-73
(2015) (holding that objective reasonableness standard
governs whether force deliberately used on pre-trial
detainee violates Fourteenth Amendment due process); Cty. of Sacramento v. Lewis, 523 U.S. 833, 846
(1998) (noting that “cognizable level of executive abuse
of power” under Due Process Clause is “that which
shocks the conscience”). Defendants highlight this deficiency in their response to plaintiffs’ motion for summary judgment, asserting that plaintiffs have not
“argue[d] that the decisions Varney made during the
Incident were unreasonable or not done to protect life
and the public health, safety and welfare.” See Docket
No. 53 at 15-16.16 However, plaintiffs fail to remedy the
issue in their reply, claiming only that defendants did
not address the “lack of . . . substantive due process.”
See Docket No. 63 at 7.
Plaintiffs have not asserted a substantive due process claim based on the reasonableness of defendants’
actions during the incident and thus have failed to

16

Defendants also highlight this deficiency in their opposition to plaintiffs’ takings claims. See, e.g., Docket No. 47 at 26;
Docket No. 60 at 6. Yet plaintiffs repeatedly assert that the reasonableness of defendants’ actions is immaterial. See Docket No.
48 at 7 (stating that, while “ouster may well have been completely
necessary for the safety of the public,” plaintiffs are still entitled
to compensation), 8 (stating that the “reasonableness or legitimacy of the police conduct” is not “the issue facing the Lechs”).

App. 53
demonstrate a genuine dispute of material fact to preclude summary judgment in defendants’ favor.17
D. Remaining State Law Claims
Plaintiffs’ five remaining claims arise under Colorado state law. Although the Court may exercise supplemental jurisdiction over state law claims if there is
a jurisdictional basis for doing so, 28 U.S.C. § 1367(c)(3)
provides that a district court “may decline to exercise
supplemental jurisdiction over a claim . . . if . . . the
district court has dismissed all claims over which it
has original jurisdiction.” The Tenth Circuit has instructed that, “if federal claims are dismissed before
trial, leaving only issues of state law,” courts should
“decline to exercise pendent jurisdiction . . . absent
compelling reasons to the contrary.” Brooks v. Gaenzle,
614 F.3d 1213, 1229-30 (10th Cir. 2010) (brackets, internal citations, and internal quotation marks omitted). This rule is consistent with “[n]otions of comity
and federalism,” which “demand that a state court try
its own lawsuits.” Id. at 1230 (quoting Ball v. Renner,
54 F.3d 664, 669 (10th Cir. 1995)).

17

Because the Court resolved plaintiffs’ takings and due process claims without relying on the testimony of plaintiffs’ expert,
Dan Corsentino, or defendants’ experts, Phil Hanson, Chris
George, and Ernie Ortiz, the Court need not determine whether
the testimony of those experts would be admissible at trial. Accordingly, Defendants’ Motion to Preclude Plaintiff ’s Expert Dan
Corsentino [Docket No. 44], Plaintiffs’ Motion to Exclude Expert
Testimony [Docket No. 45], and Plaintiffs’ Motion to Strike Expert Testimony [Docket No. 77] are denied as moot.

App. 54
Plaintiffs do not argue that the Court should retain jurisdiction over their state law claims if their federal claims are dismissed, and the Court does not find
any compelling reason to do so. Accordingly, plaintiffs’
first, second, third, fourth, and seventh (to the extent
it asserts a violation of due process under Article II,
§ 25 of the Colorado Constitution) claims for relief are
remanded to the state court for further proceedings.
See Thompson v. City of Shawnee, 464 F. App’x 720, 726
(10th Cir. 2012) (unpublished) (where all federal
claims were dismissed after case was removed to federal court, “district court had discretion either to remand the [state claims] to the state court or to dismiss
them”).18
IV. ATTORNEY’S FEES
Colo. Rev. Stat. § 24-10-110(5)(c) provides:
In any action against a public employee in
which exemplary damages are sought based
on allegations that an act or omission of a
public employee was willful and wanton, if the
plaintiff does not substantially prevail on his
claim that such act or omission was willful
and wanton, the court shall award attorney
18

Because the Court declines to retain jurisdiction over
plaintiffs’ state law claims, it need not consider those portions of
Defendants’ Reply in Support of Their Motion and Brief for Summary Judgment [Docket No. 60] that plaintiffs contend raise new
arguments. See Docket No. 69 at 2. Accordingly, Plaintiffs’ Motion
to Strike Portion of Defendants’ Reply or in the Alternative, Permit Sur-Reply by Plaintiffs [Docket No. 69] is denied. See Green
v. New Mexico, 420 F.3d 1189, 1196 (10th Cir. 2005).

App. 55
fees against the plaintiff or the plaintiff ’s attorney or both and in favor of the public employee.
By its terms, this provision applies only to plaintiffs’
state tort claims, which allege willful and wanton conduct on the part of defendants. See Docket No. 4 at 67. Because those claims are being remanded to state
court, defendants’ request for attorney’s fees is premature.19
V.

CONCLUSION
For the foregoing reasons, it is

ORDERED that Defendants’ Motion and Brief
in Support of Summary Judgment [Docket No. 47] is
GRANTED in part and DENIED in part. It is further
ORDERED that Plaintiffs’ Motion for Partial
Summary Judgment [Docket No. 48] is DENIED. It is
further
ORDERED that plaintiffs’ fifth and sixth claims
for relief are dismissed with prejudice. It is further
ORDERED that plaintiffs’ seventh claim for relief is dismissed with prejudice insofar as it states a
claim under the Fourteenth Amendment of the U.S.
Constitution. It is further
19

In light of this resolution, the Court need not determine
whether plaintiffs’ complaint seeks exemplary damages, a point
which the parties dispute. See Docket No. 47 at 35; Docket No. 54
at 29.

App. 56
ORDERED that plaintiff ’s first, second, third,
and fourth claims for relief are remanded to the District Court for Arapahoe County, Colorado, where the
case was filed as case number 2016CV31378, for further proceedings. It is further
ORDERED that plaintiff ’s seventh claim for relief is also remanded to the District Court for Arapahoe
County, Colorado, insofar as it states a claim under Article II, § 25 of the Colorado Constitution. It is further
ORDERED that defendants’ request for attorney’s fees is DENIED. It is further
ORDERED that Defendants’ Motion to Preclude
Plaintiff ’s Expert Dan Corsentino [Docket No. 44],
Plaintiffs’ Motion to Exclude Expert Testimony
[Docket No. 45], Plaintiffs’ Motion to Strike Expert Testimony [Docket No. 77], and Plaintiffs’ Motion to Strike
Portion of Defendants’ Reply or in the Alternative, Permit Sur-Reply by Plaintiffs [Docket No. 69] are DENIED AS MOOT. It is further
ORDERED that all other pending motions, to the
extent not addressed in this Order, are DENIED AS
MOOT. It is further
ORDERED that, within 14 days of the entry of
this Order, defendants may have their costs by filing a
Bill of Costs with the Clerk of the Court. It is further

App. 57
ORDERED that this case is closed.
DATED January 8, 2018.
BY THE COURT:
s/Philip A. Brimmer
PHILIP A. BRIMMER
United States District Judge

App. 58
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Civil Action No. 16-cv-01956-PAB-MJW
LEO LECH,
ALFONSIA LECH, and
JOHN LECH,
Plaintiffs,
v.
CHIEF JOHN A. JACKSON,
COMMANDER DUSTIN VARNEY,
OFFICER MIC SMITH,
OFFICER JEFF MULQUEEN,
OFFICER AUSTIN SPEER,
OFFICER JARED ARTHUR,
OFFICER BRYAN STUEBINGER,
OFFICER JUAN VILLALVA,
OFFICER ANDY WYNDER,
OFFICER ANTHONY COSTARELLA,
OFFICER ROB HASCHE,
of the Greenwood Village Police Department,
individually and in their official capacities,
and
THE CITY OF GREENWOOD VILLAGE,
Defendants.
FINAL JUDGMENT
(Filed Jan. 9, 2018)
In accordance with the orders filed during the pendency of this case, and pursuant to Fed. R. Civ. P. 58(a),
the following Final Judgment is hereby entered.

App. 59
Pursuant to the Order entered by Judge Philip A.
Brimmer on January 8, 2018, it is
ORDERED that Defendants’ Motion and Brief in
Support of Summary Judgment (Doc. 47) is granted in
part and denied in part. It is
FURTHER ORDERED that Plaintiffs’ Motion for
Partial Summary Judgment (Doc. 48) is denied. It is
FURTHER ORDERED that Plaintiffs’ fifth and
sixth claims for relief are dismissed with prejudice. It is
FURTHER ORDERED that Plaintiffs’ seventh
claim for relief is dismissed with prejudice insofar as
it states a claim under the Fourteenth Amendment of
the U.S. Constitution. It is
FURTHER ORDERED that Plaintiff ’s first, second,
third, and fourth claims for relief are remanded to the
District Court for Arapahoe County, Colorado, where
the case was filed as case number 2016CV31378, for
further proceedings. It is
FURTHER ORDERED that Plaintiff ’s seventh
claim for relief is also remanded to the District Court
for Arapahoe County, Colorado, insofar as it states a
claim under Article II, § 25 of the Colorado Constitution. It is
FURTHER ORDERED that Defendants’ request
for attorney’s fees is denied. It is
FURTHER ORDERED that Defendants’ Motion
to Preclude Plaintiff ’s Expert Dan Corsentino (Doc.
44), Plaintiffs’ Motion to Exclude Expert Testimony

App. 60
(Doc. 45), Plaintiffs’ Motion to Strike Expert Testimony
(Doc. 77), and Plaintiffs’ Motion to Strike Portion of
Defendants’ Reply or in the Alternative, Permit SurReply by Plaintiffs (Doc. 69) are denied as moot. It is
FURTHER ORDERED that all other pending motions, to the extent not addressed in this Order, are
denied as moot. It is
FURTHER ORDERED that judgment is entered
in favor of Defendants and against Plaintiffs. It is
FURTHER ORDERED that, within 14 days of the
entry of this Order, Defendants may have their costs by
filing a Bill of Costs with the Clerk of the Court. It is
FURTHER ORDERED that this case is closed.
Dated this 9th day of January, 2018.
FOR THE COURT:
JEFFREY P. COLWELL
By:

s/C. Pearson
C. Pearson, Deputy Clerk

App. 61
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
-----------------------------------------------------------------------

LEO LECH, et al.,
Plaintiffs - Appellants,
v.
CHIEF JOHN A. JACKSON, et al.,

No. 18-1051

Defendants - Appellees.
-------------------------------COLORADO MUNICIPAL
LEAGUE, et al.,
Amici Curiae.
-----------------------------------------------------------------------

ORDER
(Filed Dec. 27, 2019)
-----------------------------------------------------------------------

Before HOLMES, McKAY, and MORITZ, Circuit Judges.
-----------------------------------------------------------------------

Appellants’ petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court who are in regular
active service. As no member of the panel and no judge

App. 62
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER,
Clerk

